Audit Report GR-90-05-009

Office of Justice Programs Family Based Youth Delinquency Prevention Grant Awarded to the East Los Angeles Community Union Los Angeles, California

Audit Report GR-90-05-009


September 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Family Based Youth Delinquency Prevention grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to The East Los Angeles Community Union (TELACU), located in Los Angeles, California.  The purpose of the grant is to develop programs to prevent participation of at-risk youth in gang-related activities and crimes and to promote education.  As of August 26, 2002, OJP awarded TELACU a total of $899,961.

We tested TELACUs accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Of the $761,253 expended as of March 31, 2005, we tested transactions totaling $307,570.  Our testing identified the following deficiencies.1

TELACU claimed $27,881 in unallowable costs for refreshments and incentive awards.

	TELACU transferred funds in excess of 10 percent of total grant expenditures between budget categories without prior approval.

	TELACU expended $144,086 for equipment but did not establish an up-to-date inventory.  After the audit field work was completed TELACU compiled a comprehensive inventory of accountable assets.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objective, scope, and methodology appear in Appendix II.

We discussed the results of our audit with TELACU officials and have included their comments in the report, as applicable.  In addition, we provided the grantee and OJP with a draft of our report and requested formal responses, which are appended to the report.

   



Footnote

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs.